27

§APPENDIX
A
IN THE UNITED STATES DISTRICT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

William Snowden, Jr.,

Case No.: 4:17CV208

Petitioner,
ORDER

v.
Charmaine Bracy
Respondent

This is a timely habeas corpus case in which,
after referral, the Hon. William H. Baughman Jr.,
United States Magistrate Judge, has filed his Report
& Recommendation (Doc. 20). Petitioner has filed
objections (Doc. 21), the respondent has filed a

28

response thereto (Doc. 22), and the petitioner filed a
reply (Doc. 24). The petitioner has also filed a motion
to apply the “legal innocence” (sic: actual innocence)
standard (Doc. 23).
Finding on de novo review of the Report &
Recommendation and after due consideration, no
merit to petitioner’s objection or his motion, I adopt
the Report & Recommendation as the order of this
court, deny the motion as moot, and dismiss the
petition with prejudice.
In addition, I decline to grant Certificate of
Appealability, as jurists of reason could not
reasonably disagree with either the result or
rationale of the decision to dismiss the petition for
habeas corpus relief.
Background

29

In the early morning hours of July 20, 2013, a
police officer arrested the petitioner after the officer
saw the petitioner crossing the center line. In due
course the petitioner plead no contest to two of the
four ensuing charges of operating a vehicle while
impaired (OVI). As a repeat offender with multiple
OVI convictions over twenty years, the petitioners
received two consecutive one-year sentences.
In the instant proceeding petitioner claims that
the sentence he received does not exit under state
law and the sentencing court lacked jurisdiction, so
that his sentence was void abinitio. As is pertinent
here, his direct appeal challenged his sentence as a
violation of equal protection. That appeal included
none of the additional claims he brings in this
habeas corpus case. Nor did his subsequent appeal to
the Ohio Supreme Court, which the immediate
appellate court facilitated by certifying a conflict as

30

to its rejection of petitioner’s constitutional challenge
to his sentence. The Ohio Supreme Court affirmed
the appellate court’s rejection of petitioner’s
challenge.
Petitioner first raised his present claims in a
state habeas corpus petition in the Ohio Supreme
Court. That Court summarily dismissed that
petition.
Petitioner asserts four grounds for relief:
1. My 5th and 14th Amendment constitutional
rights were violated. I was imprisoned on a
void on its face judgment. The sentence
imposed upon me does not exit in the Ohio
Revised Code for 4th degree felony OVI. The
court sentence me to two, one year mandatory
prison terms to be served consecutive [sic].
The sentence is illegal and void.

31

2. The Court violated my 5th and 14th
Amendment rights to due process and equal
protection [when] the court convicted without
jurisdiction. The state erroneously charged
[sic] the indictment, to charge and convict a
repeat felony OVI offender. This error
removed jurisdiction from the court because it
was without the legal authority to act. If the
court would have followed the letter of the law
at sentencing my conviction would have been
impossible.
3. My 5th and 14th Amendment constitutional
rights were violated when the court failed to
make findings for [a] prison term. Before the
court can impose a prison term for a non­
violent 4th or 5th degree felony in the state of
Ohio, the court must make a mandatory
finding contained in 2929.13(B)(1)(a) or

32

(B)(1)(b). If the court cannot make a finding,
community control [sic] sanctions are
mandatory.
4. My 6th Amendment rights were violated when
I was convicted without the effective
assistance of counsel. The Court, the
Prosecutor and my own attorney did not know
the penalties that I faced as a Defendant, I
was threatened with a ten year mandatory
prison term if I went to trial. I was given and
illegal two-year mandatory prison term. My
attorney never objected. He waived my presentence investigation that would have
stopped the prison term.(Doc. 20 at 4-5
(quoting Doc. 1 at 5-10)).
Discussion

33

First: as to all petitioner’s contentions about
ineffective assistance of counsel (IAC), except for
what he raised (only in the Court of Appeals), see
Ohio v. Snowden, 11th Dist. Trumbull No. 2014-T0092, 2015-Ohio-2611, 2015 WL 3964670, *3, affd
mem., Ohio v. Snowden, 60 N.E.3d 1252 (Ohio 2016),
petitioner has presented none of the IAC grounds in
the state courts. Thus, whether due to procedural
bar or otherwise, the IAC claims are not properly
before me. There was no error in denying relief as to
any and all IAC claims.
Petitioner’s challenges to his sentence are
likewise unavailing. Those challenges, such as his
claim that his no contest plea was coerced, have
never been raised in state court and thus are not
properly before me.

34

His challenges to his sentence, whether based
alleged lack of jurisdiction, defects in cumulative
punishment provisions, or due process and equal
protection likewise do not merit relief.
He has not challenged the trial court’s
jurisdiction in state courts; thus, he cannot do so
here. In any event, such challenges are not
cognizable in a habeas proceeding: “A determination
of whether a state court is vested with jurisdiction
under state law is a function of the state courts, not
federal judiciary. “Wills v. Egeler, 532 F 2d 1058,
1059 (6th Cir. 1976)(per curiam).
The Court of Appeals, with the Ohio Supreme
Court affirming, resolved petitioner’s challenge to
the lawfulness of his sentence under state law.
Snowden, Supra, 2015 WL 3964670 affdmen, 60
N.E.3d 1252. As a state court interpretation of the

35

legality of a sentence under state law, that decision
is not cognizable of federal habeas corpus review.
E.g., Walden v. Huss, 2019 WL 2996187, at *2

(E.D.Mich.).
To the extent that petitioner seeks to assert
other non-constitutional challenges to his sentence,
his claims collide head-on with fundamental
procedural principles: “[R]es judicate will apply
when a defendant raises piecemeal claims...that
could have been raised on direct appeal....'"Ohio v.
Rangel, 11th Dist. Lake No. 2018-L-102, 2019-Ohio1845, 2019 WL 2085824, More specifically, “res
judicata applies to bar raising piecemeal claims in
successive postconviction relief conviction relief
petition... that could have been raised, but were not,
in the first post-conviction relief petition.Ohio u.
McCain, 2d Dist. Montgomery No. 27195, 2017-Ohio7518, 2017 WL 3971656, *5 (citations omitted).

36

In light of state law prohibition against
piecemeal presentation of claims, the state courts
would deny relief on the basis of procedural default.
Such denial would, and does, given petitioner’s
failure to enunciate adequate cause resulting
prejudice, bar review in this proceeding. The
Magistrate Judge thus correctly applied res judicia
principles to find that, under state law, petitioner,
due to his procedural default, cannot bring claims he
asserts for the first time here. It is indisputable that
petitioner’s default (fading to assert all his
challenges on direct appeal), being unexplained or
excused on a showing of cause, is precluded from
federal habeas review.
Finally, the decision in Snowden, Supra, 2015
WL 3964670, cut the constitutional underpinning
out from underneath the petitioner’s renewed
constitutional claims. He bottoms his claims of equal

37

protection and due process violations of the
contentions that the OVI repeat offender provisions
did not, by their own terms, require cumulative
sentences. As a result, the door was open to
unlimited discretion, thereby, petitioner postulates,
allowing discriminatory sentencing.
In Snowden supra, 2015 WL 3964670 AT *3
(iquoting Ohio v. Hartsook, 21 N.E. 3d 617, 631 (Ohio
App. 2014)), the court stated : “the language of the
respective [OVI repeat offender] statues clearly
indicates the General Assembly intended R.C.
4511.19 and R.C. 2941.1413 to authorize cumulative
punishments for a single OVI offense by a repeat
offender”
This determination of the meaning of a state
statue is conclusive, and not subject to federal court
second-guessing: “[W]hen a federal habeas court

38

determines,” as I have here,”...a state legislative
intended to authorize separate, cumulative
punishments under the circumstances presented, the
[Federal] Court ‘must accept the states court’s
interpretation of the legislative intent for the
imposition of multiple punishments.’” Nelson v.
Trierweiler, 2019 WL 1977422, *6 (E.D.Mich.)(citing
Brimmage v. Summner, 793 F.2d 1014, 1015 (9th Cir.
1986)).
Conclusion
I overrule the petitioner’s objections to
Magistrate Judge’s Report & Recommendation,
though, to some extent, I take somewhat different
pathway to reach the same conclusions that he did.
In the end, in any event, the results are the same.
It is, accordingly hereby
ORDERED THAT:

39

1. The Magistrate Judge’s Report&
Recommendation (Doc. 20) be, and the same
hereby is adopted as supplemented herein;
2. Petitioner’s objections to the Magistrate
Judge’s Report& Recommendation (Doc. 21)
be, and the same hereby are overruled.
3. The petition for habeas corpus relief (Doc. 1)
be, and the same hereby is denied and
dismissed, with prejudice, and
4. Petitioner’s motion to apple “legal innocence”
standard (Doc. 23) be, and the same is hereby
denied.
Jurists of reason could not reasonably dispute
the result reached herein or its rationale. I decline,
therefore, to issue a Certificate of Appealability.
So ordered.
/s/ James G. Carr
Sr.U.S. District Judge

40

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CASE NO. 19-3739

William Snowden Jr.,
Petitioner-Appellant
216 Churchill Road
V.
Charmaine Bracy, Warden

Appellant Motion For COA
Assistant Ohio Attorney General
Stephanie L. Watson
150 Gay street
Columbus, Ohio 43215
Attorney for Appellee
MOTION FOR CERTIFICATE OF
APPEALABILITY
Northern District of Ohio Eastern Division
Snowden v. Bracy
Originating Case No: 4:17-CV-00208

41

Comes now the Appellant William Snowden Jr.
Pro Se litigant and moves this Honorable Court to
issue a Certificate of Appealability on all four
grounds contained in this Petitioner’s Federal
Habeas Corpus petition. The four grounds stated in
the petition contain significant Federal Constitution
violations and according to the United States
Supreme Court a hearing is mandated where the
petitioner is innocent of the aggravated felony.
This is a case where a Prosecutor in Trumbull
County, Ohio is unlawfully applying a 4th degree
felony OVI statue to first time offenders to convict
defendants of an aggravated felony and illegally
sending them to prison. This statue was written in
four different sections of the Ohio Revised Code, it is
confusing and constitutionally vague. The statue is
ORC 4511.19, ORC 2929.13, ORC 2929.14 and ORC
2941.1413. If this Honorable Court would look to this

42

Appellants habeas corpus DOCKET #13 Page ID
#352-364 this court will this court will see
Appellants petition filed at Ohio Supreme Court. In
that petition the Appellant shows the proper
application of the 4th degree felony OVI statue to
square with the constitution. The ORC 2941.1413
repeat felony OVI offender specification was written
so vague the prosecutor is charging it in indictments
to first time 4th degree felony OVI offenders so that
he can coerced a guilty plea. The most disturbing
part is, if a defendant goes to trial the state can get a
jury guilty verdict by proving the exact same prior
misdemeanor convictions elements needed to prove
the basic 4th degree felony OVI, ORC
4511.19(G)(1)(d). The penalties for first time 4th
degree OVI offenders ORC 2929.13 (G)(1) are 60 or
120 days in local incarceration, mandatory
treatment and probation or ORC 2929.13(G)(2) 60 or

43

120 days in prison, mandatory treatment and
probation.
When the prosecutor charges the aggravated
felony ORC 4511.19(G)(1)(d) and 2941.1413 the
penalties jump to 71/2 years in prison with 5 years
mandatory. If this Honorable Court will look at this
Appellants Federal Habeas Corpus DOCKET #13,
PAGE ID #124-128, the court will see that the
elements for the 4th degree felony OVI and the
specification in the indictment are identical word for
word. Jurys are finding innocent defendant’s guilty
of aggravated felonies; the judge is not making any
findings and the defendant’s is being sent to serve an
illegal prison term. If this Honorable Court would
look at the Appellant’s plea agreement contained in
DOCKET #13, PAGE ID#150-158, THIS Honorable
Court will see this Appellant was threatened with a
10-year mandatory prison term. This Appellant was

44

informed by his attorney that if he lost at trial, he
would be given most is not all the 10-year mandatory
prison term. Under Ohio Law this Appellant was not
eligible one day in prison. If this Appellant would
have went to trial and lost, he would still be sitting
in prison. The miscarriage of Justice that has
occurred in my case seems to be falling on deaf ears
in all courts. This Appellant could show this
Honorable Court that any appeal in these types of
cases would be futile in Ohio Courts. First time
offenders have file Double Jeopardy, Equal
Protection, Cruel and Unusual Punishment and
Ohio Court’s allow these violations with one generic
statement, Ohio Court’s rule that the Ohio OVI
statues does not violate the Constitutional
Protections. Ohio Courts could have easily put and
end to these unlawful convictions by stopping the

45

unlawful application for first time 4th degree felony
OVI offenders.
The District Court should have ordered an
evidentiary hearing in this Appellants case. If a
hearing would be ordered the Ohio Attorney General
would have no choice but to admit to one of two
things:
1. This Appellant is innocent of the aggravated
felony and was illegally sent to prison.
2. If the statue is applied in the manner to first
time 4th degree felony OVI offender’s, the
State of Ohio has an illegal unconstitutional
law.
Whichever admission the Ohio Attorney
General chooses, this Appellant’s conviction must
be overturned. Ohio Court’s are giving Trumbull
County Prosecutor’s a green light to commit

46

whatever unlawful acts he wishes against OVI
defendants. There are many Constitutional
violations committed in this one case. The evidence
shows that if Ohio felony OVI Defendants
Constitutional Rights are to be protected it will
have to come by way of the Federal Courts.
Lonchar v. Thomas 517 U.S. 314, 324 (1996).
Dismissal of a first Federal Habeas Corpus petition
is a particularly serious matter, for that dismissal
denies the petitioner of the great Writ entirely,
risking injury to an important interest in human
liberty, Carrier 477 U.S. AT 515 (Stevens J.
concurring) stressing that appellate procedural
default should not foreclose Habeas Corpus review
of a meritorious Constitutional claim that may
establish the prisoners innocence. In Keeney v.
Tamayo Reyes 504 U.S. 1(1992). The Supreme
Court held that failure to develop a claim in state

47

court proceedings will be excused and an
evidentiary hearing mandated if a petitioner can
show that fundamental miscarriage of justice would
result from failure to hold a federal evidentiary
hearing.
This matter involves a case where a complete
miscarriage of justice has taken place The
Appellant was charged and convicted of a crime he
did not commit and illegally sentenced to a prison
term. If this Honorable Court would review the plea
the Appellant has made to the District Court
throughout this Habeas action. This Court will see
the Appellant has made claims of miscarriage of
justice, not guilty and innocent of the crime the
Appellant was convicted of. After making all these
claims throughout Appellant’s habeas, The State of
Ohio has not taken any opposition to any of these
claims (emphasis added). If an evidentiary hearing

48

would be ordered, one simple fact would resolve
this matter. The Appellant would prove beyond a
reasonable doubt that this was a first time 4th
degree felony and the Appellant is innocent of the
crime and relief must be granted.
This would not be in front of this Honorable
Court if it weren’t for Almendarez Torres v. United
States 523 U.S.224(1998). Where the Court ruled
that when charged with aggravated felony other
than the fact of a prior conviction, any fact that
increases the penalty beyond minimum or
maximum, should the fact be element of the offense
to be charged in the indictment and proven to a
jury beyond reasonable doubt or should the judge
make the findings the judge make the findings by a
preponderance of the evidence in sentencing. The
United States Supreme Court ruled the judge could
make the findings. The United States Supreme has

49

since ruled on several occasions theCourt reserves
the right to revisit that ruling. The Almendarez
Torres ruling created situations in the State of Ohio
where miscarriages of justice are taking place and
innocent defendants are being convicted and sent to
prison. These cases are brought where overzealous
prosecutors are withholding evidence of innocence
from grand juries and the courts to charge and
convict innocent defendants such as this Appellant.
Without the decision in Almendarez Torres this
could not go on. Clearly the United States Supreme
Court should revisit this, to stop innocent
defendants from being convicted and sent to prison.
In the Appellant’s case the District Court ruled
to dismiss the petition on a procedural default. The
United States Supreme Court does not agree with
the District Court’s ruling as this Appellant will

50

show throughout this plea, see McQuiggin v.
Perkins 569 U.S. 383.
HISTORY
This case originated in Trumbull County, Ohio
where the Appellant was stopped for a traffic
offense which resulted in his arrest for OVI. The
fact that the Appellant had prior misdemeanor
convictions for OVI he could face a first time 4th
degree felony OVI charge. Before the Prosecutor
could present the case to the grand jury, an
investigation had to take place to show the
Prosecutor what charges he could bring.
There are several errors in District Court’s
ruling, the District Judge stated the Appellant pled
no contest of two of four charges. That is incorrect,
in Ohio if you get an OVI the prosecutor always
brings two charges. At no time did the Appellant

51

face four charges, this was one OVI stop. The
Prosecutor brought two aggravated OVI charges
against the Appellant, he was innocent of both
aggravated charges. There was no legal way the
Court could convict. This Appellant could have been
convicted of a simple 4th degree OVI, ORC
45.11.19(G)(1)(d). When the Prosecutor brought the
charge ORC 4511.19(G)(1)(d) and 2941.1413 that
was an aggravated count and carries up to 71/2
years in prison, 5 of those mandatory. That charge
is for offenders that have been previously been
convicted two times of 4th degree felony OVI and
this is the offenders third 4th degree felony allowing
for multiple enhancements. This Appellant is
innocent of that charge and I also withstand ORC
2929.13(A)to(E), which makes it mandatory I be
sentenced under ORC 2929.13(G)(1). The Judge’s
hands were tied in this matter. He could only

52

sentence this Appellant to 120 days in local
incarceration, mandatory alcohol treatment and
probation.
If the judge does anything other than that,
specific findings must be entered into the record.
When the Prosecutor charged the aggravated count,
the court could not legally convict the Appellant.
The Court without authority ignored making the
findings and sentenced the Appellant to a two-year
mandatory prison term. The Appellant was
innocent of the crime and the sentence, without the
mandatory findings in the record to allow this, the
judgment remains void.
The State does not deny I am innocent and
served a 2 year mandatory prison term. The State’s
only defense is a procedural defense. This defense
does not apply here, see Harrera v. Collins 506 U.S.

53

390 113 S. C.T.853, 122 L. ED. 2d 203(1993).
Federal Courts have always ruled innocence
trumps all.
This Appellant has in his possession the report
prepared for the Prosecutor before he went to the
grand jury. That report proves the Appellants
innocence beyond a reasonable doubt. I challenge
whether a case will come before this Court where
innocence is so easily proven. The District Judge
states that an ineffective assistance counsel claim
would be procedurally defaulted here. The United
State Supreme Court disagrees. A very similar case
to this Appellant’s case was addressed by the
United States Supreme Court see Dretke v. Haley
541 U.S. 389 (2004).
The District Judge in his ruling states this
Appellant did not raise jurisdiction in the state

54

courts. The Appellant collaterally attacked it to the
Trial Court and the Ohio Supreme Court which is
the proper way attack a void judgement. The Ohio
Court’s dismissed without commit. The United
States Supreme Court has always ruled that “when
a defendant has been convicted of a crime the
defendant did not commit and illegally sentenced to
prison; relief must be granted”. The Justices make
it clear in Dretke v. Haley. If not for the fact this
Appellant had incompetent counsel and the court
ignored statutory protections, this Appellant could
not have been convicted see Strickland v.
Washington 466 U.S. 668 (1984).
The District Judge also ruled the Appellant is
arguing cumulative punishment, that is incorrect.
This Appellant is arguing I could not be given any
prison term, see ORC 2929.13 (B). The Prosecutor
charged the Appellant as having two prior felony

55

OVI convictions, this was Appellant’s first felony
offense. This Appellant is innocent of the crime and
sentence. I have put this in front of the trial court
and the Ohio Supreme Court and Ohio courts
choose to look the other way and not address the
issue. When the State of Ohio courts know that a
man was illegally convicted and illegally sentenced
to a mandatory two-year prison term and refuse to
address the matter and release him the Federal
Courts have a duty to step in, see Dretke v. Haley
541 U.S. 386 (2004).
The fact the Petition was dismissed on
procedural grounds, the Appellant must satisfy a
two-prong test as required under Slack v. McDaniel
529 U.S. 473, 484 (2000). A COA will issue when
jurists of reason would find it debatable whether
the Appellant states a valid claim of the denial of a
Constitutional Right and that jurists of reason

56

would find it debatable whether the District Court
was correct in its procedural ruling. This Appellant
satisfies both prongs:
GROUND 1
My 5th and 14th Amendment Constitutional
rights were violated; I was imprisoned on a void on
its face judgment. The sentence imposed upon me
does not exist in the Ohio Revised Code for 4th
degree felony OVI . The court sentenced me to two,
one-year mandatory prison terms to be served
consecutive, this sentence is illegal and void.
This ground meets prong one and two; because
this sentence does not exit for any OVI even for any
aggravated OVI and more particular in this
Appellants case, I could not be given any prison
sentence. The judgment and sentence are void on
their face. This violates my 5th Amendment, due

57

process and 14th Amendment, equal protection. The
Appellant is innocent of this sentence and
procedural bar is debatable.
GROUND 2
The court violated my 5th and 14th Amendment
rights to due process and equal protection, when
the court convicted without jurisdiction. The state
erroneously charged the indictment, to charge and
convict a repeat felony OVI offender. This error
removed jurisdiction from the court because it was
without legal authority to act. If the court would
have followed the letter of the law at sentencing my
conviction would have been impossible.
This ground meets prong one and two, because
the Prosecutor charged Appellant as a third time
4th degree felony OVI offender. This was the
Appellants first time 4th degree felony OVI offense,

58

the court could not convict me of an aggravated
felony. I had protections in the statute because I
am innocent. The Prosecutor cannot charge me
with a crime the Court cannot convict me of. When
the Court convicted me ignoring my statutory
protections, this violates my due process and equal
protection rights. Reasonable jurists would debate
procedural default. The judgment is void and I am
innocent.
GROUND 3
My 5th and 14th Amendment Constitutional
rights were violated when the court failed to make
findings for a prison term. Before the court can
impose a prison term for a non-violent 4th or 5th
degree felony in the State of Ohio, the court must
make mandatory findings contained in ORC
2929.13(B)(1)(a) or (B)(1)(b). If the court cannot

59

make a finding, community control sanctions are
mandatory.
This ground meets prong one and two, because
it proves I am innocent of the aggravated felony, if I
were guilty the court could make plenty of findings
the fact the court cannot make the findings, proves
I am innocent, and the Trial Court lacked
jurisdiction to convict. Reasonable jurist would
debate procedural bar.
GROUND 4
My 6th Amendment rights were violated when I
was convicted without effective assistance of
counsel. The Court, the Prosecutor and my own
attorney did not know the penalties that I faced as
a defendant. I was threatened with a ten-year
mandatory prison term if I went to trial. I was
given an illegal two-year mandatory prison term .

60

My attorney never objected. He wavwd my pre­
sentence investigation that would have stopped the
prison term .
This ground meets prong one and two, because
had my attorney told the court this was my first
offense and this Appellant withstands (A) to (E)
2929.13 of the Ohio Revised Code, this Appellant
could not have been convicted or sentenced to any
aggravated charges or any prison term. If he would
have ordered a presentence investigation I could
not have been convicted. The jurist of the United
States Supreme Court has already addressed this
in Dretke v. Haley 541 U.S. 386(2004). The
attorney’s ineffectiveness of counsel where the
Defendant is innocent of an aggravated felony
meets cause and prejudice to overcome procedural
default.

61

The last and most important issue that
overrules the District Court is miscarriage of
justice where the Petitioner is innocent. The State
takes no opposition to the fact I am innocent
because they could not in good faith stand before
the Court and say I am guilty.
QUESTION FOR REVIEW
1. When a Habeas Corpus Petitioner is
innocent of the crime and conviction occurred
because of ineffective assistance of counsel
should a District Court dismiss the petition
without an evidentiary hearing?
This Petitioner respectfully requests this Honorable
Court to grant the following relief:
1. Issue a COA on grounds 1,2,3 and 4.
2. Order an evidentiary hearing in that the
Petitioner can prove his innocence.

62

3. Any other relief this Honorable Court could
issue to address the miscarriage of justice.
Respectfully Submitted,
/s/William Snowden Jr.

63

APPENDIX C

No. 19-3739
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

WILLIAM SNOWDEN, JR.,
Petitioner-Appellant,
ORDER

v.
CHARMAINE BRACY, Warden,
Respondent-Appellee.
William Snowden, Jr., a former Ohio

prisoner proceeding pro se, appeals a district
court judgment denying his petition for a writ of
habeas corpus filed pursuant to 28 U.S.C. § 2254

64

and moves this court for a certificate of
appealability (“COA”).
In 2014, Snowden pleaded no contest to two
counts of operating a vehicle while impaired,
each with a repeat offender specification. The
trial court merged the two convictions and
sentenced Snowden to two years in prison. The
Ohio Court of Appeals affirmed. State v.
Snowden, No. 2014-T-0092, 2015 WL 3964670
(Ohio Ct. App. June 30, 2015). The state court of
appeals then granted Snowden’s motion to
certify a conflict between it’s decision affirming
Snowden’s conviction and a decision of another
state court of appeals in a different district. See
State v. Snowden, 39 N.E.3d 1268 (Ohio 2015)

1 Snowden was incarcerated when he filed his habeas petition,
which is all the ‘in custody’ provision of 28 U.S.C. § 2254
requires.” Spencer u. Kenna, 523 U.S. 1,7(1998).

65

(table). After resolving the conflict, the Ohio
Supreme Court affirmed Snowden’s conviction.
State v. Snowden, 60 N.E.3d 1252 (Ohio 2016)
(mem.).
Meanwhile, Snowden had filed a motion to
vacate his sentence. The trial court determined
that, because Snowden’s direct appeal was then
pending in the Ohio Supreme, it lacked
jurisdiction to address the motion.
After the Ohio Supreme Court affirmed
Snowden’s conviction, he filed a petition for
habeas corpus in the Ohio Supreme Court which
was denied. Snowden v. Bracy, 67 N.E.3d 822
(Ohio 2017) (table).
Snowden then filed the present § 2254
petition, claiming that: (1) the judgment is void
because his two-year sentence for a fourth-

66

degree felony for operating a vehicle while
impaired “does not exist in the Ohio Revised
Code”; (2) the trial court lacked jurisdiction to
convict him; (3) the trial court failed to make the
requisite findings before sentencing him for a
non-violent fourth-degree felony; and, (4) his
trial counsel was ineffective for failing to object
to his allegedly illegal sentence and for waiving
his presentence investigation, which would have
“stopped” the allegedly illegal sentence.
A magistrate judge issued a report and
recommendation, in which he recommended
that Snowden’s petition be denied on the ground
that all his claims are procedurally defaulted.
The district court agreed, denied the petition,
and declined to issue a COA. The district court
added that Snowden’s procedurally defaulted
claims, to the extent that they sought to

67

challenge the lawfulness of his sentence under
state law, also are not cognizable on federal
habeas review. Snowden now seeks a COA from
this court.
This court may issue a COA “only if the
applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. §
2253(c)(2). When a district court “denies a
habeas petition on procedural grounds without
reaching the prisoner’s constitutional claim” the
petitioner can satisfy § 2253 (c)(2) by
establishing that “jurists of reason would find it
debatable whether the petition states a valid
claim of the denial of a constitutional right and
that jurists of reason would find it debatable
whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S.
473, 484 (2000).

68

Reasonable jurists could not debate the
district court’s determination that Snowden’s
claims are procedurally defaulted because they
were not fairly presented to the Ohio Courts.
See Pudelski v. Wilson, 576 F.3d 595, 605 (6th
Cir. 2009). To obtain relief under § 2254 a
prisoner must first exhaust his state remedies
by “giv[ing] the state courts one full opportunity
to resolve any constitutional issues by invoking
one complete round of the State’s established
appellate review process.” O’Sullivan v.
Boerckel, 526 U.S. 838,845 (1999); see 28 U.S.C.
§ 2254(b)(1). When a petitioner has failed to
exhaust his state remedies, and when he can no
longer do so under state law, his habeas claim is
procedurally defaulted. O’Sullivan, 526 U.S. at
848.

69

Snowden did not raise any of his claims in
the Ohio Court of Appeals or the Ohio Supreme
Court during his direct appeal. He therefore
failed to invoke one complete round of Ohio’s
appellate review process. See id. at 845. Because
Snowden can no longer present his claims to the
Ohio courts under Ohio res judicata rule, Gray
v. Netherland, 518 U.S. 152, 161-62 (1996);
Hanna v. Ishee, 694 f.3d 596, 614 (6^ Cir. 2012),
reasonable jurists could not disagree with the
district court’s conclusion that Snowden’s claims
are procedurally defaulted.
—

A federal habeas court is barred from

'ry‘

*

reviewing a procedurally defaulted claim unless
the petitioner can show either cause for the
default and actual prejudice from the alleged
constitutional violation, or that failure to
consider the claim would result in a

70

“fundamental miscarriage of justice,” Coleman
v. Thompson, 501 U.S. 722, 750-51 (1991), which
can be demonstrated only by presenting new
evidence showing actual innocence, Hodges v.
Colson, 727 F.3d 517, 530 (6* Cir. 2013).
Snowden argues that procedural default is
excused by the ineffective assistance of his trial
counsel. But this argument cannot provide
cause to excuse Snowden’s procedural default
because he procedurally defaulted this
ineffective-assistance claim, too, by failing to
litigate it through one complete round of statecourt review. See Edwards v. Carpenter, 529
U.S. 466, 453 (2000). And Snowden does not
argue that cause and prejudice excuse the
default of ineffective-assistance claim.
Reasonable jurists therefore would agree that

71

the alleged ineffective assistance of trial counsel
does not excuse his procedural default.
Reasonable jurists would also agree that
Snowden’s procedural default is not excused by
a credible showing of actual innocence. Snowden
maintains that he is “100 percent innocent” but
he presents no new evidence in support of that

claim.
Because no reasonable jurists could debate
the district court’s denial of Snowden’s petition
on the ground that he claims are procedurally
defaulted, this court need not address the
district court’s supplemental findings that
Snowden’s claims, to the extent that they
challenge his sentence under state law, are not
cognizable on federal habeas review.

72

Finally, Snowden maintains that the district
court should have held an evidentiary hearing.
But because his claims could be rejected on the
basis of the existing record, reasonable jurists
could not debate the district court’s decision not
to hold an evidentiary hearing. See Muniz v.
Smith, 647 F.3d 619, 625 (6th Cir. 2011) (“A
district court is not required to hold an
evidentiary hearing if the record ‘precludes
habeas relief.’” (quoting Schriro v. Landrigan,
550 U.S. 465, 474 (2007)))/
According, the court DENIES the motion for
aCOA.

ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt, Clerk

